No. 19-311

In the Supreme Court of the United States
AL CANNON, SHERIFF, PETITIONER
v.
BRODERICK WILLIAM SEAY, JR., RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

JASON SCOTT LUCK
Counsel of Record
Garrett Law Offices, LLC
1075 E. Montague Ave.
North Charleston, SC 29405
(843) 554-5515
jluck@garrettlawsc.com
SARA ALEXANDRA TURNER
The Law Office of Sara A. Turner, LLC
105 Wappoo Creek Drive, Suite 1 A
Charleston, SC 29412
(843) 277-2431
sara@saraturnerlaw.com
Attorneys for Respondent

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Respondent, Broderick William Seay, Jr., through undersigned counsel,
asks leave to file the attached brief in opposition to petition for a writ of certiorari
without prepayment of costs (where applicable) and to proceed in forma pauperis.
Respondent has not previously been granted leave to proceed in forma pauperis; the
Declaration of Broderick William Seay, Jr. is attached as an exhibit to this motion.
Wherefore, undersigned counsel respectfully requests that Mr. Seay be
permitted to proceed in forma pauperis and without prepayment of costs (where
applicable).
Respectfully submitted.
By: /s/ Jason Scott Luck
JASON SCOTT LUCK
Counsel of Record
Garrett Law Offices, LLC
1075 E. Montague Ave.
North Charleston, SC 29405
(843) 554-5515
jluck@garrettlawsc.com
SARA ALEXANDRA TURNER
The Law Office of Sara A. Turner, LLC
105 Wappoo Creek Drive, Suite 1 A
Charleston, SC 29412
(843) 277-2431
sara@saraturnerlaw.com
Attorneys for Respondent
November 14, 2019
North Charleston, South Carolina

1

